                                               EMPLOYMENT AND TRAINING
                                               ADMINISTRATION

                     General—Office of
           Inspector General—Office    Audit
                                    of Audit




                                               THE STATE OF WASHINGTON IMPLEMENTED A
                                               DECENTRALIZED APPROACH IN THE ONE-STOP
                                               SEAMLESS SERVICE CONCEPT
       of Inspector
Office of
Office




                                                                   Date Issued: September 28, 2005
                                                                   Report Number: 06-05-010-03-390
U.S. Department of Labor                               SEPTEMPER 2005
Office of Inspector General
Office of Audit                                        The State of Washington
                                                       Implemented a Decentralized
BRIEFLY…                                               Approach in the One-Stop
                                                       Seamless Service Concept
Highlights of Report Number: 06-05-010-03-390, to
the Assistant Secretary for Employment and Training
Administration.                                        WHAT OIG FOUND

WHY READ THE REPORT                                    We found that the State of Washington has
The Workforce Investment Act of 1998 mandated          implemented the seamless One-Stop vision.
the One-Stop delivery system. It requires states to
consolidate their predecessor Wagner-Peyser core       The State implemented a One-Stop organizational
employment services (ES) with other job training       structure that supports the seamless service
programs to form one seamless service delivery         concept. ESD, DSHS, and the State Board for
system for its customers.                              Community and Technical Colleges effectively
                                                       coordinate to provide a cohesive workforce system.
This includes having one overall application process   ESD coordinates the oversight and administration of
with comprehensive services available on site with     the One-Stop system, supports local flexibility by
minimal referrals. However, the law provides           allowing the local councils to create a framework of
flexibility in how the states and local areas          policies and procedures without interference at the
implement this vision, which allows them to address    state level, and ensures that center operations are
issues that may be unique to their area.               contracted out through a competitive process.

                                                       The State has developed a statewide common
WHY OIG DID THE AUDIT
                                                       intake system for the One-Stop service delivery
The Department of Labor’s (DOL) Employment and         system.
Training Administration (ETA) views the One-Stop
system as the cornerstone of the new workforce         Local boards established detailed MOUs to support
investment system, which unifies numerous training,    the One-Stop concept.
education, and employment programs into a single,
customer-friendly system in each community. ETA        WHAT OIG RECOMMENDED
envisions one overall service system where One-
                                                       We had no recommendations for the Assistant
Stop truly means one stop.
                                                       Secretary for Employment and Training.
The OIG conducted a performance audit of the State
                                                       The results of this report are included in a summary
of Washington’s One-Stop system to determine if the
                                                       report that consolidates the results, findings, and
seamless vision was implemented within the State of
                                                       recommendations of the four states audited during
Washington. Our audit included two One-Stops
                                                       this project.
within the State of Washington, and covered the
One-Stops organizational structure, management
                                                       The State of Washington agreed with the results of
information system integration, and memoranda of
                                                       our audit..
understanding, implemented subsequent to July 1,
2001.

READ THE FULL REPORT
To view the report, including the scope,
methodology, and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2004/06-
05-010-03-390.pdf
Final
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                            DISCUSSION DRAFT
         The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                                Service Concept




Table of Contents
                                                                                                                      PAGE

EXECUTIVE SUMMARY ................................................................................................ 5


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 7

   1. The State implemented a One-Stop organizational structure that supports
      the seamless service concept ............................................................................. 8

   2. The State has developed a statewide common intake system for the
      One-Stop service delivery system .................................................................... 11

   3. Local boards established detailed MOUs to support the One-Stop
      concept................................................................................................................ 12

APPENDICES ............................................................................................................... 15

   A. Background ........................................................................................................ 16

   B. Objective, Scope, Methodology, and Criteria .................................................. 17

   C. Acronyms and Abbreviations ........................................................................... 21

   D. Agency Response .............................................................................................. 23




U.S. Department of Labor—Office of Inspector General                                                                          3
Report Number: 06-05-010-03-390
Final
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




4                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                         DISCUSSION DRAFT
      The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                             Service Concept


Executive Summary
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. It
requires states to consolidate their predecessor Wagner-Peyser core employment
services (ES) with other job training programs to form one seamless service delivery
system for its customers.

The Department of Labor’s (DOL) Employment and Training Administration (ETA) views
the One-Stop system as the cornerstone of the new workforce investment system,
which unifies numerous training, education, and employment programs into a single,
customer-friendly system in each community. ETA envisions one overall service
system where One-Stop truly means one stop. This includes having one overall
application process with comprehensive services available on site with minimal
referrals. However, the law provides flexibility in how the states and local areas
implement this vision, which allows them to address issues that may be unique to their
area.

Because of the flexibility the law allows, states have implemented different workforce
structures. The State of Washington established oversight of employment and training
services through the Employment Security Department (ESD), while the Department of
Social and Health Services (DSHS) provides oversight over Temporary Assistance for
Needy Families (TANF) and the State Board for Community and Technical Colleges
oversees those employment and training services related to education.

Our audit objective was to determine how the seamless vision was implemented within
the State of Washington. We performed audit work at the ESD and at two One-Stop
centers, in order to answer the following three questions:

   1. Does the One-Stop organizational structure support the seamless system
      concept?
   2. Has one overall application process been established to support the One-Stop
      service delivery system?
   3. Are Memoranda of Understanding (MOUs) established between partners to
      implement a system that supports the One-Stop concept?

Results

Based on our audit work at the State and the two One-Stop centers, we found that:

   1. The State implemented a One-Stop organizational structure that supports the
      seamless service concept. ESD, DSHS, and the State Board for Community and
      Technical Colleges effectively coordinate to provide a cohesive workforce
      system. Also, ESD coordinates the oversight and administration of the One-Stop
      system, supports local flexibility by allowing the local councils to create a

U.S. Department of Labor—Office of Inspector General                                      5
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept

       framework of policies and procedures without interference at the state level, and
       ensures that center operations are contracted out through a competitive process.

    2. The State has developed a statewide common intake system for the One-Stop
       service delivery system.

    3. Local boards established detailed MOUs to support the One-Stop concept.

These results indicate that the State of Washington has implemented the seamless
One-Stop vision.


Agency Response

The State concurred with the audit results.




6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                           DISCUSSION DRAFT
        The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                               Service Concept
U.S. Department of Labor                       Office of Inspector General
                                               Washington, DC 20210




                          Assistant Inspector General’s Report


Ms. Emily Stover DeRocco
Assistant Secretary
 for Employment and Training


The Workforce Investment Act of 1998 (WIA) mandated the One-Stop delivery system.
It requires states to consolidate their predecessor Wagner-Peyser core employment
services (ES) with other job training programs to form one seamless service delivery
system for its customers. The Employment and Training Administration (ETA) envisions
one overall service system where One-Stop truly means one stop. This includes having
one overall application process with comprehensive services available on site with
minimal referrals. However, the law provides flexibility in how the states and local areas
implement this vision.

The seven guiding principles of the WIA are:

    •   streamlined services,
    •   empowering individuals,
    •   universal access,
    •   increased accountability,
    •   strong role for local workforce investment boards and the private sector,
    •   state and local flexibility, and
    •   improved youth programs.

Our audit focused on the principles of streamlined services, universal access, and state
and local flexibility. The audit objective was to determine if the State of Washington
implemented an environment conducive to the seamless service concept. We
performed audit work at the Employment Security Department (ESD) and at two One-
Stop centers. We reviewed the following elements:

   •    center organizational structure
   •    management information system
   •    memorandum of understanding

Based on a review of these elements, our results indicate that the State of Washington
has implemented an effective One-Stop service delivery system.


U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.

Objective 1 – Does the One-Stop organizational structure support the seamless
service concept?

Results

The State implemented a One-Stop organizational structure that supports the
seamless service concept.

The underlying notion of the One-Stop concept is to coordinate programs, services, and
governance structures so customers have access to a seamless system of workforce
services. The State of Washington established an effective organizational structure to
coordinate One-Stop programs and services. Major features of their One-Stop structure
include:

      •   The State administers the One-Stop system through a single entity.
      •   The State encourages local flexibility in creating detailed policies and
          procedures.
      •   The State supports local flexibility within the WIA to contract out center
          operations.

      A. The Employment Security Department (ESD) coordinates the oversight and
         administration of the One-Stop system.

Despite the fact that Washington’s workforce system has different oversight agencies,
they effectively coordinate to provide a cohesive workforce system. The following chart
shows the oversight, by Agency, for the various employment and training programs as
required by the WIA.

                               Department of Social and        State Board for Community
    ESD
                               Health Services (DSHS)          and Technical Colleges
    WIA Title I                Workfirst (State TANF           WIA Title II - Adult Education
                               program)
    Wagner Peyser (ES)         Vocational Rehabilitation       Carl Perkins Postsecondary
                                                               Technical Education
    Welfare-to-Work
    Trade Act Programs
    Veterans Programs
    Food Stamp Employment
    & Training
    Unemployment Insurance


8                                           U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 06-05-010-03-390
                                                                         DISCUSSION DRAFT
      The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                             Service Concept


ESD’s Employment and Training Division has the specific tasks of overseeing WIA
programs and providing business systems support. Also contained within the ESD is
the WorkSource Operations Division, which oversees the 12 Workforce Development
Areas (WDA), and ultimately the One-Stops located within each of the WDAs.

Integration of service delivery is not impeded by having different oversight agencies, as
evidenced by the One-Stop Partner representation on the State Board. This
representation ensures stakeholders have input in developing and implementing the
workforce system. The State Workforce Board's purpose is to plan, coordinate,
evaluate, monitor and provide policy analysis. Members of the State Workforce Board
include the Commissioner of ESD, the Executive Director of the State Board for
Community and Technical Colleges, and the Secretary of DSHS.

   B. The ESD operates the state workforce system with minimal policies and
      procedures to provide maximum local flexibility.

The State’s WIA Operations Plan states:

       It is the State’s intent to provide maximum local flexibility, so we will issue
       a minimum of State policies.

Although ESD has specific policies regarding operational requirements for Title 1-B of
the Workforce Investment Act, as well as the operation of Wagner-Peyser, they also
issue additional guidance on a selective basis. This guidance is disseminated through
the use of Information and Guidance letters. These letters are not prescriptive or
directive, but are provided to inform and guide. Developing local policies and
procedures related to these communications is at the discretion of the local boards in
establishing a framework that supports and promotes integration of programs and a
seamless service delivery system.

At the two centers we reviewed, an Inverted Pyramid Service Delivery model was
utilized. In this model, customers flow through:

       •   core services; self-service or facilitated self-service, to
       •   group services (orientation and workshops), to
       •   intensive/training; one-on-one services.

The model provides One-Stop centers a streamlined process for serving their respective
clientele. Center guidelines address specific issues such as customer flow, staff
responsibilities, cross-training, and a focus on customer choice.




U.S. Department of Labor—Office of Inspector General                                        9
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept


     C. The State allows local flexibility in contracting out the One-Stop center
        operations

The State has not established criteria for selecting operators beyond what is stated in
the WIA. According to the WIA, Chapter 3, Section 121 (d)(2)(A-B), eligible One-Stop
operators:

        (A) shall be designated or certified as a one-stop operator—
              (i) through a competitive process; or
             (ii) in accordance with an agreement reached between the local
                  board and a consortium of entities . . .; and
        (B) may be a public or private entity, or consortium of entities . . . which
        may include –
              (i) a postsecondary educational institution;
             (ii) an employment service agency established under the Wagner-
                  Peyser Act . . .;
            (iii) a private, nonprofit organization (including a community-based
                  organization);
            (iv) a private for-profit entity;
             (v) a government agency; and
            (vi) another interested organization or entity, which may include a
                  local chamber of commerce or other business organization.

The State’s support of local flexibility was reflected in the two centers that were audited.
These centers differed in the style of center management and delivery of services.
These differences reflect a flexibility that is consistent with the WIA.

In one center, the WDC designated the local county employment and training
consortium as the grant recipient and WIA Administrator. The consortium co-manages
the Career Development Center (CDC) with ESD. The CDC, through contracts,
partners with the Department of Vocational Rehabilitation (DVR) and Goodwill
Industries to operate certain WIA programs such as providing services to disabled
adults.

The local consortium oversees the operations, planning, and development related to the
WIA Adult, Youth and Dislocated Worker programs, the Senior Community Service
programs, the Veterans Programs, the TAA program, and the National Emergency
Grants. The ESD handles the Wagner-Peyser (core services) function.

In the other center, the WIA grant recipient is also the local employment and training
consortium. The local employment and training consortium works in conjunction with
the WDC through the use of an administrative staff function. Through this
administrative staff, oversight is maintained over the WIA programs and the workforce
development system. A difference in this center is that the One-Stop/WorkSource



10                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 06-05-010-03-390
                                                                          DISCUSSION DRAFT
       The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                              Service Concept

center is operated solely by ESD. WIA program services are provided through
grants/contracts with the following service delivery organizations:

   •   Career Path Services (CPS) and ESD
          o for Adult Services
   •   Goodwill Industries, Educational Services District 101 and CPS
          o for Youth Services
   •   ESD and CPS
          o for Dislocated Worker services.


Objective 2 – Has one overall application process been established to support the
One-Stop service delivery system?

Results

The State has developed a statewide common intake system for the One-Stop
service delivery system.

The DOL, through WIA regulations, envisions a variety of programs using common
intake, case management and job development systems to take full advantage of the
One-Stops’ potential for efficiency and effectiveness. In order to realize this goal, the
Services, Knowledge Information Exchange System (SKIES) was developed to provide
an automated statewide system.

The ESD, DSHS, and State Board for Community and Technical Colleges are among
the partners that were involved in the development of the SKIES system. They agreed
upon the information that would be collected in the system in order to meet the
requirements of all of the partners using the system. The system connects the State's
employment, education, and training resources into a coherent network where partners
can easily share information.

Our review at two local One-Stops supports that common intake is occurring. Common
application forms help regulate the intake process and provide a consistent method for
initial assessment of customer needs. All partners agree to be involved in data sharing,
so that even though they may not actually share a system, they can see other services
and programs clients are involved in.




U.S. Department of Labor—Office of Inspector General                                      11
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept


Objective 3 – Are Memoranda of Understanding (MOUs) established between
partners to implement a system that supports the One-Stop concept?

Results

Local boards established detailed MOUs to support the One-Stop concept.

The WIA encourages partner agencies to use MOUs to establish and define working
relationships in the delivery of services in One-Stop centers. According to the WIA,
Chapter 3, Section 121:

       (c), the local board, with the agreement of the chief elected official, shall
       develop and enter into a memoranda of understanding (between the local
       board and the One-Stop partners) . . . Each memorandum of
       understanding shall contain:

              (i)     the services to be provided through the One-Stop delivery
                      system;
              (ii)    how the costs of such services and the operating costs of
                      the system will be funded;
              (iii)   methods for referral of individuals between the One-Stop
                      operator and the One-Stop partners, for the appropriate
                      services and activities; and
              (iv)    the duration of the memoranda and the procedures for
                      amending the memoranda during the term of the
                      memoranda.

We deemed the first three items listed in Section 121 of most significance to ensure a
clear understanding of how the center operator and required/optional partner programs
agreed to provide services.

ETA cited the need for strong MOUs in its Final Rule implementing WIA. 20 CFR Part
662 et al., provides that “the MOU . . . be the vehicle for addressing the specified issues
of services, costs and referrals . . . .” Additionally, MOUs are the “vehicle through which
the partner’s role in the local system is detailed.” The regulations also cite that MOUs
are the “. . . primary means for coordinating the services of the One-Stop partners [and]
are the foundation of the entire workforce investment system.”

The MOUs reviewed at the two centers appear to be effective documents in
encouraging coordination between center partners. The MOUs have sufficient detail to
identify responsibilities, define the level of coordination between center partners, and
specify methods of cost sharing.




12                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                          DISCUSSION DRAFT
       The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                              Service Concept

In center one, the MOU outlined the following information:

   •   The MOU defines the services provided and by what agency.
   •   In the MOU, all partners have agreed to participate in a common customer
       referral system. In this system they will accept previously collected customer
       information by other partners as well as provide such information to other
       partners. They also agreed to provide information regarding the status of the
       referral. It was not specified whether this process would include a paper referral
       system, nor was it specified whether partners had to follow up on referrals.
   •   The MOU specifies cost allocation methods. Partners are charged based upon
       the percentage of Full-Time Equivalent (FTE) employees at the CDC. Partners
       may also contribute on an in-kind basis, or through a resource sharing
       agreement.

At center two, the MOU outlined the following information:

   •   The MOU supports co-location and integration of services, ensuring that core,
       intensive, and training services are available onsite, or are readily accessible.
       The MOU also details the intensive services such as screening and assessment,
       integrated case management, job matching, education and training resources,
       and referrals.
   •   The MOU requires that customers referred for intensive services or co-enrollment
       will receive a confirmed referral with the date, time, place of the appointment, and
       that appointments will be scheduled within 3 working days.
   •   The MOU specifies three cost allocation method: FTE’s, square footage, and in-
       kind co-location agreements. Partners co-located at the center will fund the
       program services and activities provided through the WorkSource center.

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendix B.


Agency Response

The State concurred with the audit results.




Elliot P. Lewis
March 31, 2005




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                         DISCUSSION DRAFT
      The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                             Service Concept




Appendices




U.S. Department of Labor—Office of Inspector General                                     15
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept
                                                                              APPENDIX A
BACKGROUND
The Workforce Investment Act of 1998 mandated the One-Stop delivery system. The
WIA requires States to consolidate their predecessor Wagner-Peyser core employment
services (job referrals, job bank, employment assistance) with other job training
programs (currently WIA Title I programs, Trade Adjustment Assistance, Veterans,
Older Worker, Housing and Urban Development employment and training, and
Community Development Block Grant employment and training) to form one seamless
service delivery system for its customers. Optional partners include the Temporary
Assistance for Needy Families program and Food Stamp employment, training, and
work programs.

The WIA gives flexibility to the state and local governments to set up their One-Stops as
they determine will best serve their local clients. However, the following core services
must be made available: skills assessments, job search and placement assistance, job
statistics, performance and cost information on training providers, performance
information on One-Stop service delivery, accurate supportive service referrals,
information on filing UI claims, assistance in establishing eligibility for various financial
aid programs, and follow up services.

DOL states in the FY 2001 and 2002 annual reports:

       One-Stop Career Centers provide the focal point for meeting the
       challenges of a global economy. Through the One-Stop Centers,
       communities can build the local partnerships and organize the workforce
       development services that enable adults to acquire the skills needed for
       jobs and career changes that lead to high wages and for businesses to
       meet their ongoing recruitment and human services needs.

ETA envisions one overall service system, where One-Stop truly means one stop. This
includes having one overall application process with comprehensive services available
on site with minimal referrals. This audit report provides ETA with information on how
the State of Washington operates its One-Stop system to carry out seamless service
delivery.




16                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                           DISCUSSION DRAFT
        The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                               Service Concept
                                                                               APPENDIX B
OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

Our audit objective was to determine if an environment conducive to the seamless
service concept was implemented in the State of Washington.

Scope

Our audit focused on the WIA principles of streamlined services, universal access, and
state and local flexibility. We determined these would best measure the State’s
implementation of its One-Stop system.

Our analysis of One-Stop center operations was based on the period July 1, 2001
through April 1, 2004.

Sampling was performed in two stages – first the state was selected, then One-Stop
centers. States were selected based on:

        •   TANF presence
        •   Obtaining geographic dispersion, and
        •   Population.

Washington was selected as a TANF co-located state. We defined TANF co-located
as: those states that listed a significant number of centers (as compared to the total
number of centers in the state) with TANF eligibility and/or TANF employment and
training activities. Those states with TANF co-located centers were identified from a
GAO survey.

Centers were judgmentally selected based on funding, demographic, and geographic
factors. Centers are not identified due to the limited number included in the audit work,
and agreements with State and local staff to encourage an open dialogue.

We selected center one:

    •   to provide coverage of an urban area One-Stop center;
    •   that was a Full Service center; and
    •   was geographically dispersed.

Center two was selected:

   •    to provide coverage of a suburban area One-Stop center;
   •    that was a Full service center; and
   •    was geographically dispersed.

U.S. Department of Labor—Office of Inspector General                                       17
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept

Evidence was obtained through interviewing State, local board, and center staff;
observations of operations; and documentation. Please see “Methodology” for work
performed.

Methodology

Work was performed at three levels.

     •   At the Federal level, we:
             o Interviewed key workforce staff to gain an understanding of the seamless
                service delivery concept,
             o Obtained and reviewed laws, directives, and regulations pertaining to
                One-Stop operations;

     •   At the state level, we:
             o Obtained and reviewed their annual WIA plan, 5-year strategic plan, and
                organizational chart,
             o Interviewed key staff responsible for One-Stop operations,
             o Obtained and reviewed policy directives issuing guidance regarding One-
                Stop operations,
             o Discussed the state MIS structure to gain a general understanding of the
                client information flow;

     •   At two One-Stop centers, we:
             o Obtained and reviewed the local strategic plan, policies and procedures,
                and other documents to understand how One-Stop services are provided.
             o Interviewed center partners and performed a center walk-through to
                understand how the center operates;
             o Met with MIS staff to understand how One-Stop service data is reported
                and the systems used by the various programs at the center;
             o Obtained and reviewed MOUs for compliance with WIA requirements, and
                to further understand how the One-Stop center is intended to operate;
             o Conclude whether mandatory and optional partners serve clients directly
                at the center or through referrals.

Our audit work inherently included an assessment of the general internal controls used
in the general operation of Washington’s One-Stop system. Our audit procedures
included an assessment of the workforce system structure and operations.




18                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                          DISCUSSION DRAFT
       The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                              Service Concept


Criteria
We used the following criteria to perform this audit:

   •   WIA Section 121, Establishment of One-Stop Delivery Activities
   •   WIA Final Rules (20 CFR Part 662) dated August 11, 2000
   •   H.R. 1261, “Workforce Reinvestment and Adult Education Act of 2003”
   •   S. 1627, “Workforce Investment Act Amendments of 2003”




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                         DISCUSSION DRAFT
      The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                             Service Concept
                                                                             APPENDIX C
ACRONYMS AND ABBREVIATIONS




   CDC        Career Development Center
   CPS        Career Path Services
   DSHS       Department of Social and Health Services
   DOL        Department of Labor
   DVR        Department of Vocational Rehabilitation
   ES         Employment Services
   ESD        Employment Security Department
   ETA        Employment and Training Administration
   FTE        Full Time Equivalent
   GAO        Government Accountability Office
   MIS        Management Information System
   MOU        Memoranda of Understanding
   OIG        Office of Inspector General
   SKIES      Services, Knowledge Information Exchange System
   TAA        Trade Adjustment Assistance
   TANF       Temporary Assistance to Needy Families
   WDA        Workforce Development Area
   WDC        Workforce Development Council
   WIA        Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                     21
Report Number: 06-05-010-03-390
DISCUSSION DRAFT
The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
Service Concept




                  PAGE HAS BEEN INTENTIONALLY LEFT BLANK




22                                       U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 06-05-010-03-390
                                                                         DISCUSSION DRAFT
      The State of Washington Implemented a Decentralized Approach in the One-Stop Seamless
                                                                             Service Concept
                                       APPENDIX D
AGENCY RESPONSE




U.S. Department of Labor—Office of Inspector General                                     23
Report Number: 06-05-010-03-390
